Audit Report




OIG-10-032
Management Letter for Fiscal Year 2009
Audit of the Office of Thrift Supervision’s Financial Statements

January 19, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             January 19, 2010


            MEMORANDUM FOR JOHN E. BOWMAN, ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2009
                                  Audit of the Office of Thrift Supervision’s
                                  Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Office of Thrift Supervision’s (OTS) fiscal year 2009 financial
            statements. Under a contract monitored by the Office of Inspector General, Lani Eko
            & Company, CPAs, PLLC (Lani Eko), an independent certified public accounting firm,
            performed an audit of the financial statements of OTS as of September 30, 2009,
            and for the year then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE
            Financial Audit Manual.

            As part of its audit, Lani Eko issued and is responsible for the accompanying
            management letter that discusses certain matters involving internal control and its
            operation that were identified during the audit but were not required to be included
            in the auditor’s reports.

            In connection with the contract, we reviewed Lani Eko’s letter and related
            documentation and inquired of its representatives. Our review disclosed no instances
            where Lani Eko did not comply, in all material respects, with generally accepted
            government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a member
            of your staff may contact Mark S. Levitt, Manager, Financial Audits at
            (202) 927-5076.

            Attachment
          2009
Comments on Internal Control
   and Other Matters




   Office of Thrift
    Supervision
                 INDEPENDENT AUDITOR’S MANAGEMENT LETTER



To the Inspector General
U.S. Department of the Treasury

We have audited the financial statements of the U.S. Department of the Treasury, Office of
Thrift Supervision (OTS) as of and for the years ended September 30, 2009 and 2008. In
planning and performing our audit, we considered the OTS’ internal control over financial
reporting as a basis for designing our auditing procedures, obtained an understanding of the
design effectiveness of internal controls, determined whether the internal controls have been
placed in operation, assessed control risk, and performed tests of the OTS’ internal controls for
the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the OTS’ internal control over financial reporting.

We noted certain matters involving internal control that are presented in the attachment to this
letter for your consideration. These findings and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve the OTS’
internal controls or result in other operating efficiencies.

OTS’ responses to our findings and recommendations have not been subjected to the auditing
procedures applied in the audit of the financial statements and, accordingly, we express no
opinion on them.

This report is intended solely for the information and use of the Inspector General of the U.S.
Department of the Treasury, the management of the OTS, the OMB, the Government
Accountability Office and Congress and is not intended to be and should not be used by anyone
other than these specified parties.




October 30, 2009
Alexandria, Virginia
Attachment


                                     Office of Thrift Supervision
                 FY 2009 Financial Statement Audit Comments and Recommendations


   1. Oversight of Travel Expenses

CONDITION
During our testing of disbursements, we reviewed a sample of 37 travel vouchers and noted that
29 travel vouchers had no documented evidence of official review and approval. We also noted
that mileage reimbursements for travel by OTS staff and consultants were not supported to
ensure that the mileage amount claimed was accurate and valid.

LEC reviewed travel voucher categories that are eligible for management review under current
OTS policies and procedures. Although reviews of travel vouchers were performed, we noted
instances of reviews that were performed 5 to 11 months after the travel end dates.

CAUSE
During FY 2009, OTS management eliminated the requirement that OTS managers review or
approve travel vouchers. In addition, OTS employees and consultants are not required to submit
supporting documentation with their claims for travel reimbursements.

CRITERIA
Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states that control activities occur at all levels and functions of the entity. They
include a wide range of diverse activities such as approvals, authorizations, verifications,
reconciliations, performance reviews, maintenance of security, and the creation and maintenance
of related records which provide evidence of execution of these activities as well as appropriate
documentation.

EFFECT
Without proper OTS management oversight of travel expense reimbursements, OTS is
susceptible to risk of fraud, waste and/or abuse. In FY 2009, OTS travel and transportation
expenses totaled approximately $18 million.

RECOMMENDATION
We recommend that OTS develop and implement procedures to ensure adequate oversight of
travel expenses.

MANAGEMENT RESPONSE
Beginning in fiscal year 2010, OTS managers or managers’ designees, within 30 days of claims
being filed, will review 100% of travel claims and certify that the travel was authorized, valid,
and approved for official business. Finance and Acquisition Management will continue to audit
all claims over $2,500, all claims for international travel, all claims for travel by executive
management, and 5% of the remaining claims.




                                               2
Attachment


                                Office of Thrift Supervision
                FY 2009 Financial Statement Audit Comments and Recommendations


   2. Access Controls Over Computer Resources

CONDITION
While OTS management had made significant improvements in logical access controls over the
General Support System (GSS) and the OTS information resources, we noted the following
logical access controls where additional improvements are needed to protect sensitive agency
data. Specifically, improvements are needed in the following areas:

      Review of Access Authorizations - There are no documented procedures for
       provisioning user access to the financial applications managed by internal OTS logical
       access provisioning tools, and

      User Account Reviews - Periodic reviews to determine if system access is still
       appropriate are not performed for the financial applications managed by internal OTS
       logical access provisioning tools.

CAUSE
OTS does not document logical access control policies and procedures for the significant
financial applications. OTS does not document physical access control policies and procedures
for the data centers that support the significant financial applications.

CRITERIA
NIST Special Publication 800-53 (Revision 2), Recommended Security Controls for Federal
Information Systems - ACCESS CONTROL POLICY AND PROCEDURES: The organization
develops, disseminates, and periodically reviews/updates: (i) a formal, documented, access
control policy that addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance; and (ii) formal, documented
procedures to facilitate the implementation of the access control policy and associated access
controls.

EFFECT
By not enforcing adequate logical and physical access controls, the OTS exposed the General
Support System (GSS), National Application Tracking System, Assessment Billing System and
Furniture, Fixtures and Equipment System (Inventory Tracking System) to the risk that
unauthorized individuals could gain access to sensitive information. Additionally, OTS’ ability
to protect sensitive data or equipment from theft or inadvertent disclosure would be
compromised if an unauthorized person entered a restricted facility containing sensitive OTS
equipment and data.




                                              3
Attachment


                                 Office of Thrift Supervision
                 FY 2009 Financial Statement Audit Comments and Recommendations


RECOMMENDATION
We recommend that OTS: a) document its procedures of access authorizations for its financial
applications; and b) perform periodic user account reviews to determine if system access is still
appropriate for its financial applications;

MANAGEMENT RESPONSE
We believe that OTS’s policies for physical and logical access are adequate, well documented,
and effectively enforced. Directive 12111, Physical and Environmental Protection Policy,
8/17/09, addresses physical access controls. Directive 12112, Access Control Policy, 8/17/19,
addresses logical access controls. Together, these policies require permission from system
owners for access to systems and periodic review of access lists. Physical controls include
tracking access to and escorting uncleared personnel in controlled spaces.

We believe that, OTS’s procedures, though sufficient, are informal and can be strengthened
through documentation. Our CIO will be tasked to produce written procedures for implementing
the access control policies. Additionally, Information, Technology, and Facilities (ITF) staff will
test the procedures and ensure that access control lists are periodically reviewed by system
owners. ITF Staff with access to controlled spaces will be instructed to log their entrances and
exits, and the Director of Security will be assigned responsibility for reviewing logs of access to
controlled spaces.




                                                4
